No. 20-1755
In the

Supreme Court of the United States

__________________
DEAN HOTOP, KEN SCHNEEBELI, JEFF ZELL, SHERMAN
ZELL, LOIS ZELL, LOUISE PETER, SEIGI TADOKORO, PAT
CREMA, SEAN RHINEHART, SHUCHUN HUANG, JAMES
CAMPAGNA, SAL RUIZ, ISAAC AGAM, STEVE MAHL,
LLOYD KIP, ROBERTA MOORE, DENG LIU, SHASHA
CHEN, XIAODONG LI, ZHONGHUA PEI, XIAOCONG YE,
SMALL PROPERTY OWNERS ASSOCIATION - SAN JOSE,
IN ITS REPRESENTATIVE CAPACITY ON BEHALF OF ITS
ASSOCIATION MEMBERS,

Petitioners,
v.
CITY OF SAN JOSE, A MUNICIPAL CORPORATION,
Respondent.
__________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

__________________
REPLY BRIEF OF PETITIONERS
__________________
FRANK A. WEISER
Counsel of Record
ATTORNEY AT LAW
3460 Wilshire Blvd., Suite 1212
Los Angeles, CA 90010
T: (213) 384-6964
F: (213) 383-7368
maimons@aol.com
Counsel for Petitioners
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
I.

The “Not Pressed or Passed Upon Below”
Rule is Inapplicable To The Question
Presented In this Case . . . . . . . . . . . . . . . . . . 1

II.

The Petitioners Have Not Mischaracterized
the Ninth Circuit Decision . . . . . . . . . . . . . . . 4
A. The argument that the majority confused
the reasonable expectation of privacy test
with the property based test. . . . . . . . . . . 4
B. The Argument that the Ninth Circuit
wrongly assumed a “Required Records”
Exception to the Fourth Amendment and
the Overlap between Information
disclosed under the Ordinance . . . . . . . . . 5
C. The administrative searches and precompliance review argument. . . . . . . . . . . 9

III.

The Ninth Circuit’s Wide Departure from the
Search Analysis of Other Circuit Courts
Confirms the Need for This Court’s Review . . . 10

IV.

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . 12

ii
TABLE OF AUTHORITIES
CASES
Boyd v United States,
116 U.S. 616 (1886). . . . . . . . . . . . . . . . . . . 2, 3, 11
Carlson v Green,
446 U.S. 14 (1980). . . . . . . . . . . . . . . . . . . . . . . . . 1
Carpenter v United States,
138 S.Ct. 2206 (2018) . . . . . . . . . . . . . . . . . . . . . . 7
City of Los Angeles v Patel,
576 U.S. 409 (2015). . . . . . . . . . . . . . . . . 6, 7, 8, 10
Dewey v Des Moines,
173 U.S. 193 (1899). . . . . . . . . . . . . . . . . . . . . . . . 1
Entick v Carrington,
(1765) 95 Eng. Rep. 807 (KB) . . . . . . . . . . . . . . 11
Hale v Henkel,
201 U.S. 43 (1906). . . . . . . . . . . . . . . . . . . . . . . 3, 6
Illinois v Gates,
462 U.S, 213 (1983). . . . . . . . . . . . . . . . . . . . . . . . 1
Marshall v Barlow’s Inc.,
436 U.S. 307 (1978). . . . . . . . . . . . . . . . . . . . . . . . 6
San Francisco Apartment Association v
City and County of San Francisco,
881 F.3d 1169 (9th Cir. 2018). . . . . . . . . . . . . . . . 6
See v Seattle,
387 U.S. 541 (1987). . . . . . . . . . . . . . . . . . . . . 9, 10

iii
Soldal v Cook County,
506 U.S. 56 (1992). . . . . . . . . . . . . . . . . . . . . . . . 10
United States v Morton Salt Co.,
338 U.S. 632 (1950). . . . . . . . . . . . . . . . . . . . . . . . 3
Vernonia Sch. Dist. 47J v Acton,
515 U.S. 646 (1995). . . . . . . . . . . . . . . . . . . . . . . . 8
Yee v City of Escondido,
503 U.S. 519 (1992). . . . . . . . . . . . . . . . . . . . . . . . 2
STATUTES
28 U.S.C. §1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
California Civil Code §1947.7(g) . . . . . . . . . . . . . . . . 4
OTHER AUTHORITIES
Orin Kerr, Norms of Computer Trespass, 116
Columbia Law Review 1143 (2016) . . . . . . . . . . 11
3 William Blackstone, Commentaries. . . . . . . . . . . 11

1
I.
The “Not Pressed or Passed Upon Below” Rule
is Inapplicable To The Question Presented In
this Case
The City’s argument that “[t]he Questions
Presented were neither pressed nor passed below,”
(BIO: 12-14) is misplaced. First, there is only one
question presented, whether the ordinance’s compelling
a landlord to produce and transmit their business
records and information under compulsion of criminal
sanctions for non-compliance constitutes an
unconstitutional “constructive” search under the
Fourth Amendment. The argument of whether there is
a
“required records” exception to the Fourth
Amendment is one of several arguments in support of
the question presented. The City is mistaken in
characterizing the argument as the second question
presented. (BIO: 13).
The “not pressed or passed upon below” rule
generally concerns the Court’s certiorari jurisdiction
over decisions from state courts that derives from 28
U.S.C. §1257. See Illinois v Gates, 462 U.S, 213, 217220 (1983) (expressing inconsistent views as to whether
the rule is jurisdictional or prudential in cases arisiing
from state courts); see also Carlson v Green, 446 U.S.
14, 17, n. 2 (1980) (in cases arising from federal courts,
the rule is only prudential). The Court has
distinguished between the raising of constitutional
claims and the making of arguments in support or
opposition to those claims. Dewey v Des Moines, 173
U.S. 193 (1899). “If the question were only an
enlargement of the one mentioned in the assignment of

2
errors, or if it were so connected with it in substance
form but another ground or reason for alleging the
invalidity of the personal judgment, we should have no
hestitation in holding the assignment sufficient to
permit the question to be raised and argued. Parties
are not confined here to the same arguments which
were advanced in the courts upon a Federal question
there discussed.” Id., at 197-198; see also Yee v City of
Escondido, 503 U.S. 519, 534-535 (1992) (“Petitioners’
arguments that the ordinance constitutes a taking in
two different ways, by physical occupation and by
regulation, are not separate claims. They are, rather
separate arguments in support of a single claim - that
the ordinance effects an unconstitutional taking.
Having raised a taking claim in the state courts,
therefore, petitioners could have formulated any
argument theu liked in support of that claim here. A
litigant seeking review in this Court of a claim properly
raised in the lower courts thus generally possesses the
ability to frame the question to be decided in any way
he chooses, without being limited to the manner in
which the question below was framed below.”)
(emphasis in original).
The Petitioners clearly raised the Fourth
Amendment claim in the district court in their
Complaint and First Amended Complaint. (ER: 5, 7, 9
(Paragraphs 13, l7, 23); 115, 118, 119-120 (Paragraphs
13, l7, 23). The Petitioners also argued both in the
district court and on appeal that their Fourth
Amendment claim was not solely dependent on the
“reasonable expectation of privacy” test and that the
property based test does not require a physical
intrusion by the government under Boyd v United

3
States, 116 U.S. 616 (1886), Hale v Henkel, 201 U.S. 43
(1906) and United States v Morton Salt Co., 338 U.S.
632 (1950). (USDC Docket No. 31: 11-12) (Ninth
Circuit Docket Nos. 12: 20, 24-25; 34: 6-11).
The Ninth Circuit recognized that a Fourth
Amendment claim was raised to the challenged
provisions and that the Petitioners presented the
question whether the property based test does not
require a physical intrusion by the government, but
refused to decide the claim under the property based
test, not because it was waived, but because the
complaint did not adequately allege that they have a
reasonable expectation of privacy in the information
contained in the records. (Petition, App. 7-8). Judge
Bennett’s concurrence recognized that that “[t]he
government may also conduct a constructive search by
collecting information through an oderly taking under
compulsion of process,” but refused to extend the rule,
as is the case here, to information collected by the
government by way of regulatory ordinances. (Petition,
App. 22) (internal quotation marks and citations
omitted).
The question presented in this case is properly
raised in this Court.

4
II.
The Petitioners Have Not Mischaracterized the
Ninth Circuit Decision
A. The argument that the majority confused the
reasonable expectation of privacy test with
the property based test
The City’s argument that the Petitioners misstate
the Ninth Circuit’s decision when they argue that the
court made the property based test contingent on the
the Katz reasonable expectation of privacy standard is
mistaken. (BIO: 14). The City’s argues that the
Petitioners fail to acknowledge that their complaint did
not plausibly allege a possessory property interest and
that the court declined to address it because they only
raised that theory for the first time on appeal. (BIO:
14) (citing Hotop, 982 F.3d at 714, n. 3). However, what
the Ninth Circuit rejected as waived was not the
question “whether the Fourth Amendment is
implicated only by a physical inspection of the
documents themselves,” (Petition, App. 8), but a
separate argument that the Petitioners’ “property
interests” in their business records could also be
grounded, not only on their right to exclude other
parties from the documents or information, but also
under the statutory entitlement doctrine from
California Civil Code §1947.7(g). (Petition, App. 8, n. 3).
The Ninth Circuit did not state or imply that the
Petitioners do not have a possessory interest in their
business records or the information produced or that
they waived the question whether the property based
test is limited only to physical intrusions.

5
The Ninth Circuit clearly stated that “[e]ven if the
Fourth Amendment is implicated by certain nonphysical intrusions, in that context the plaintiff must
have a reasonable expectation of privacy in the
contents of the documents before the government’s
conduct can be deemed a Fourth Amendment ‘search.’”
(Petition, App. 8).
Nor did Judge Bennett’s concurrence state or imply
any waiver of the question Rather, Judge Bennett
refused to apply the constructive search doctrine
beyond court orders and subpoenas.to regulatory
ordinances. (Petition, App. 22).
B. The Argument that the Ninth Circuit wrongly
assumed a “Required Records” Exception to
the Fourth Amendment and the Overlap
between Information disclosed under the
Ordinance
The City misapprehends the argument. The City is
incorrect that neither party argued below that the
required records doctrine applies here. The Petitioners
raised the argument in their petition for rehearing en
banc. (Ninth Circuit Docket No. 53: 15-16). The
argument is clearly relevant.
Judge Bennett explicitly refused to apply the the
constructive search doctrine to regulatory processes, in
effect holding that the government’s requirement to
demand and collect information by way of an
ordinance was not a search under the Fourth
Amendment. (Petition, App. 22-25).
The majority assumed that because the Petitioners
were required to produce overlapping records or

6
information in the “fair return context” which was not
challenged in this suit that they ase converted to public
records or information under the Ordinance’s rent
registry. (Petition, App. 16). The Ninth Circuit further
held, based on its prior decision in San Francisco
Apartment Association v City and County of San
Francisco, 881 F.3d 1169 (9th Cir. 2018), that the
complaint that the complaint did not allege a plausible
reasonable expectation of privacy to records that they
already disclose to the City in other contexts. (Petition,
App. 10-11).
It is long settled that the Fourth Amendment’s
protection of “papers” covers business records. See
Hale, 201 U.S. at 76-77; see also City of Los Angeles v
Patel, 576 U.S. 409 (2015) (applying Fourth
Amendment protections to business records); Marshall
v Barlow’s Inc., 436 U.S. 307, 311 (Fourth Amendment
protects business property no less than residential
property). The Petitioners have a possessory and
ownership interest in their business records, By virtue
of these property-based interests, they have the right
to exclude others from prying into the content of the
records. This is the source of the expectation of privacy
in both their records and the information contained in
the records.(Petition, at 16)
As in Patel, where the motel owners were held to
have a Fourth Amendment interest in their business
records and its contents, the landlords’ subject to the
Ordinance have a property and privacy interest in their
records and information subject to Fourth Amendment
protection.

7
The Court has stated that “[a]lthough no single
rubric definitively resolves which expectations of
privacy are entitled to protection, the analysis is
informed by historical understandings of what was
deemed an unreasonable search and seizure when [the
Fourth Amendment] was adopted. On this score, our
cases have recognized some basic guideposts. First,
that the Amendment seeks to secure the privacies of
life against arbitrary power. Second, and relatedly, that
a central aim of the Framers was to place obstacles in
the way of a too permeating police surveillance.”
Carpenter v United States, 138 S.Ct. 2206, 2213-2214
(2018) (internal quotation marks and citations
omitted).
The mere adoption of an ordinance requiring
disclosure of business records or its contents cannot
eviscerate the Fourth Amendment’s guarantees,
otherwise, the government could arbitrarily collect
private records and information and also use such
information for criminal investigations.
The Ninth Circuit distinguished the Patel en banc
decision, Patel v City of Los Angeles, 738 F.3d 1058
(9th Cir. 2013) (en banc), aff’d, 576 U.S. 409 (2015), by
holding that the hotel owners did not need to allege
additional facts concerning the private nature of the
information contained in their registries because there
was no indication that they provided their guest
registries or similar information to the government in
other situations. (Petition, App. 11-12).
The argument is incorrect. In the Patel case, the
hoteliers made the argument, both before the district

8
court and on appeal, that they used the guest
registries for a variety of business purposes that
included using
the registries in compiling and
computing their business transient occupancy taxes,
and that even though the City of Los Angeles might
demand the registries in a tax audit that did not
extinguish their privacy rights. Rather, the hoteliers
retained the right to assert their Fourth Amendment
rights in such an audit even though the government
demands the records by ordinance. In fact, because the
records can have implications in future tax audits, the
hoteliers had strong reasons not to disclose the
information in other contexts without retaining the
right to object on Fourth Amendment grounds.
There was no suggestion by the en banc court, or
this Court, that the hoteliers lost their privacy rights
because the government might demand such records in
other contexts. Much as compliance with one subpoena
does not preclude a person from challenging a later
subpoena, so, too, the Petitioners retain the right to
challenge under the Fourth Amendment the newly
adopted rent registry ordinance even if they are not
challenging the previously adopted fair return portions
of the Ordinance. The Ninth Circuit was mistaken that
they waived their right to do so.
The California Association amici were correct in
citing this Court’s explanation that “[w]hat
expectations are legitimate varies, of course, with
context.” (California Assns.’s Brief at 12) (citing
Vernonia Sch. Dist. 47J v Acton, 515 U.S. 646, 654
(1995).

9
The City’s attempt to distinguish the cases cited by
Petitioners that there is no “required records” doctrine
exception to the Fourth Amendment is unavailing.
(Petition, App. 14-15). The cases cited demonstrate that
other circuits have rejected the doctrine as
categorically applied to a compulsory process of
production independent of the Fourth Amendment
interests involved, and the holding in those cases were
not dependent as to how the the government effects the
process.
C. The administrative searches
compliance review argument

and

pre-

The City glosses over See v Seattle, 387 U.S. 541
(1987) by arguing in one sentence that the case is
distinguishable becauase it concerned a fire inspection
of a warehouse. (BIO: 23). But while the case dealt
with a warehouse owner who refused to grant access to
a fire inspector, the Court addressed, more broadly, the
application of the Fourth Amendment to
administrative demands for corporate records. The
Court stated: “It is now settled that, when an
administrative agency subpoenas corporate books and
records, the Fourth Amendment requires that the
subpoena be sufficiently limited in scope, relevant in
purpose, and specific in directive so that compliance
will not be unreasonably burdensome. The agency has
the right to conduct all reasonable inspections of such
documents which are contemplated by statute, but it
must delimit the confines of a search by designating
the needed documents in a formal subpoena. In
addition, while the demand to inspect may be issued by
the agency, in the form of an administrative subpoena,

10
it may not be made and enforced by the inspector in the
field, and the subpoenaed party may obtain judicial
review of the reasonableness of the demand prior to
suffering penalties for refusing to comply.” Id. at 54445 and n. 3. (See Petition at 13).
The City does not address See’s broader holding
that even before Patel, the Court has held that precompliance judicial review is necessary before penalties
can be imposed.in the enforcement of a demand for
business records. (See Petition at 14).
III.
The Ninth Circuit’s Wide Departure from the
Search Analysis of Other Circuit Courts
Confirms the Need for This Court’s Review
As was argued in the Petition, the confusion caused
by the Ninth Circuit’s decision is manifest. As the amici
for the Apartment Association of Greater Los Angeles
aptly stated, “the Ninth Circuit’s
holding has
confusingly and misleadingly imposed a privacy
requirement in a Fourth Amendment property context,
whose protections - as this Court has explicitly noted ‘go further and often have nothing to do with privacy at
all.’” (AAGLA Brief at 5) (citing Soldal v Cook County,
506 U.S. 56, 64 (1992)). As the Petitioners and
California Association amici argue, the Ninth Circuit
now takes an approach that differs with other circuits
in analyzing Fourth Amendment search claims. Judge
Bennett’s distinction between compulsory process by
way of a subpoena or court order as opposed to a
regulatory ordinance has no precedential basis in this
Court’s cases.

11
Further, the City’s position on the merits of whether
the property based test is limited to physical tresspass
is incorrect. In Boyd, the characteristic of an actual
search and seizure - the “forcible entry into a man’s
house and searching amongst his papers” - were
deemed merely “aggravating incidents” the absence of
which was insufficient to exclude Fourth Amendment
considerations. Id., 116 U.S. at 622. The Court’s
employment in Boyd of a test of the functioinal
equivalence of physical trespass by way of a
compulsory production and search and seizure based on
Entick v Carrington, (1765) 95 Eng. Rep. 807 (KB), Id.,
116 U.S. at 630, has additional antecedents in the
common law. As Orin Kerr has remarked, “[t]respass
is an accordion-like concept that can mean different
things in different contexts” Orin Kerr, Norms of
Computer Trespass, 116 Columbia Law Review 1143,
1149, n. 23 (2016) (citing 3 William Blackstone,
Commentaries *208-09 discussing variations of
trespass at common law).
The Court should grant the petition and resolve the
confusion and circuit conflict created by the Ninth
Circuit and decide the important question of the limits
and scope of the Court’s property based approach in the
context of the compelled production of business records
and information by way of a regulatory process.

12
IV.
CONCLUSION
For the foregoing reasons, Petitioners request the
Court to grant their petition for a writ of certiorari.
Respectfully submitted,
FRANK A. WEISER
Counsel of Record
ATTORNEY AT LAW
3460 Wilshire Blvd., Suite 1212
Los Angeles, CA 90010
T: (213) 384-6964
F: (213) 383-7368
maimons@aol.com
Counsel for Petitioners

